                   Audit of the Adequacy of Disclosure
                     Statement, Revision Number 8

                               November 2003

                     Reference Number: 2004-1C-018




  This report has cleared the Treasury Inspector General For Tax Administration
disclosure review process and information determined to be restricted from public
                  release has been redacted from this document.
                                     DEPARTMENT OF THE TREASURY
                                        WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                         November 24, 2003


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE


       FROM:                  Daniel R. Devlin
                              Assistant Inspector General for Audit (Headquarters Operations
                              and Exempt Organizations Programs)

       SUBJECT:               Audit of the Adequacy of Disclosure Statement, Revision
                              Number 8 (Audit #20041C0209)


       The Defense Contract Audit Agency (DCAA) examined the contractor’s revised
       disclosure statement, Revision Number 8, dated October 8, 2003. The purpose of the
       examination was to determine whether the contractor’s revised disclosure statement
       adequately described the cost accounting practices that the contractor proposes to use
       in performing Government contracts, and whether the revised practices comply with
       applicable Cost Accounting Standards and Federal Acquisition Regulation Part 31.
       The DCAA opined that the contractor’s revised disclosure statement adequately
       describes the contractor’s current cost accounting practices. According to the DCAA,
       the revision is effective as of March 29, 2003. However, the DCAA expresses no
       opinion on the contractor’s compliance with the revised practices.
       The DCAA stated that the contractor is responsible for submitting cost impact proposals
       and for engaging in negotiations of adjustments resulting from changes to its disclosed
       accounting practices. The DCAA also stated that it is not practical to estimate the
       magnitude of the total cost impact for the changes in the revised disclosure statement
       prior to obtaining this information from the contractor. Additionally, the DCAA indicated
       that the contracting parties have not agreed to unilateral changes. Therefore, terms and
       conditions are subject to negotiation.
       In the Contractor Organization and Systems section of their report, the DCAA continues
       to express opinions that the contractor’s budget and planning, estimating, indirect and
       other direct costs, and billing systems are inadequate, and that the DCAA will perform
       follow-up audits of these systems upon completion of corrective actions taken by the
       contractor.
                                           2




The information in this report should not be used for purposes other than those intended
without prior consultation with the Treasury Inspector General for Tax Administration
regarding their applicability.
If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
Director at (202) 927-7077.

Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
